Inspectors General
u. S. Department of Defense and
U. S. Department of Veterans Affairs




DoD/VA Care Transition Process
for Service Members Injured
in OIF/OEF
June 12, 2008


Department of Defense
Report No. 1E-2008-005


Department ofYeterans Affairs
Report No. 06-02857-127
DEPARTMENT OF VETERANS AFFAIRS OFFICE OF INSPECTOR GENERAL


        'Mission: 0](;; is deaicatea to fiefping o/)'l ensure tfiat 'Veterans and tfieir
        families recei'Ve tfie care, support, and recognition tfiey fia'Ve earned
         tfirougfi service to tfieir country. 0](;; stri'Ves to fiefp o/)'l acfiie'Ve its
        'Vision of 6ecoming tfie 6est-managed service defi'Very organization in
         90'Vernment. 019 continues to 6e responsi'Ve to tfie needs of its
         customers 6y worlijng witfi tfie o/)'l management team to identify and
         address issues tfiat are important to tfiem and tfie 'Veterans served.




DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL

        '.Mission: 'I1ie Office of the Inspector qenera[ promotes
        integrity, accountamfity, and impro'Vement of mepartment of
        mifense personnef; programs and operations to support the
        mepartment's mission andto seroe the pu6[ic interest.
What Was Done.
The Under Secretary of Defense for Personnel and Readiness requested the Department of Defense (DoD)
Inspector General perform a review of the DoD/Veterans Affairs care transition process for Service
members injured in Operations Iraqi Freedom and Enduring Freedom. To facilitate an integrated approach
and outcome, DoD and the Department of Veterans Affairs (VA) Offices of the Inspector General formed
an interagency team, allowing access to DoD and VA facilities, records, and decision makers.

What Was Identified.
The interagency IG team identified 14 draft recommendations for program improvement. However,
during 2006, the interagency IG effort was one of three parallel efforts related to health care for OIF/OEF
Service members. Moreover, the National Defense Authorization Acts for Fiscal Years 2006-2008
legislated provisions to improve Service member health care.
In May 2007, the Secretary of Defense formed the Wounded, Ill, and Injured Senior Oversight Committee
to coordinate and track legislative requirements, the more than 400 recommendations made by the
independent commissions, and implementing actions within DoD and VA. In collaboration with the
Wounded, Ill, and Injured Senior Oversight Committee, the DoD/VA team determined that Congress,
various commissions, DoD, and VA had already addressed 11 of their 14 draft recommendations.
While not addressed in legislation or parallel task force reports, as of April 2008, DoD and VA took action
on two of the three remaining recommendations.
  • DoD developed draft policy for seamless transition oversight and coordination. Implementation was
     pending final guidance and instructions from the Wounded, Ill, and Injured Senior Oversight
     Committee.
  • The Office of Congressional and Legislative Affairs of the Department of Veterans Affairs began
     consideration of an amendment to section 1717, title 38, United States Code, allowing the Secretary
     of Veterans Affairs to provide Home Improvements and Structural Alterations (HISA) grants to
     eligible veterans prior to discharge from military service.
With regard to the third recommendation, the issue identified was that medically retired Service members
who are rated 100 percent disabled and deemed unemployable and are without ready access to VA or DoD
health care facilities pay more for medical care than career-service retirees because of inequitable criteria
for health care coverage.

How it Can Be Improved.
We recommended that the Under Secretary of Defense for Personnel and Readiness coordinate with the
Centers for Medicare and Medicaid Services of the Department of Health and Human Services to develop
and propose legislation waiving Medicare Part B monthly premiums for life for medically retired Service
members deemed unemployable. DoD and VA should continue to cooperate and implement task force
recommendations and legislative changes further improving the transition process for wounded Service
members.




                                                      i
                                             DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




GENERAL INFORMATION
Forward questions or comments concerning the report of the DoD/VA Care Transition Process
for Service Members Injured in OIF/OEF and other activities conducted by the Inspections &
Evaluations Directorate to:

                                Inspections & Evaluations Directorate
                   Office of the Deputy Inspector General for Policy & Oversight
                     Office of Inspector General of the Department of Defense
                                        400 Army Navy Drive
                                   Arlington, Virginia 22202-4704
                                       crystalfocus@dodig.mil

An overview of the Inspector General of the Department of Defense mission and organizational
structure is available at http://www.dodig.mil.


An overview of the Inspector General of the Department of Veterans Affairs mission and
organizational structure is available at http://www.va.gov/oig.



TO REPORT FRAUD, WASTE, AND ABUSE, OR MISMANAGEMENT
Contact the DoD OIG Hotline by telephone at (800) 424-9098, by e-mail at hotline@dodig.mil
or in writing:


                                      Defense Hotline
                                       The Pentagon
                                      Washington, D.C.
                                        20301-1900



Contact the VA OIG Hotline by telephone at (800) 488-8244, by e-mail at vaoighotline@va.gov,
or in writing:

                             VA Inspector General Hotline (53E)
                                     P.O. Box 50410
                               Washington, DC 20091-0410
                              U.S. Department of Defense and
                             U.S. Department of Veterans Affairs


                                                                    JUN 12, 2008


REPORT TRANSMITTAL

       The Offices of Inspector General of the Departments of Veterans Affairs and Defense
prepared this interagency report.

       The report assesses the transition process for Service members injured in ongoing
operations as they transfer from the DoD health care system to the VA health care system, and
provides recommendations for program improvement.

        The interagency DoD/VA Inspectors General team met with senior leaders and visited
DoD and VA facilities to observe and identify strengths and weaknesses in the care transition
process. During the conduct of this assessment, DoD and VA leaders and managers initiated
significant efforts to improve transition processes and to comply with legislative mandates. This
report acknowledges the accomplishments of both Departments.

       Recommendations in this report were based on the best information available to the
Offices of Inspector General and have been discussed with those responsible for implementation.
These recommendations should result in more effective, efficient, and equitable assistance to
Service members and veterans.

          We appreciate the cooperation of all those who contributed to the preparation of this
report.


(original signed by:)                                     (original signed by:)

John D. Daigh, Jr., M.D.                                  Donald M. Horstman
Department of Veterans Affairs                            Department of Defense
Office of Inspector General                               Office of the Inspector General
Assistant Inspector General for                           Deputy Inspector General for
   Healthcare Inspections                                     Policy and Oversight
This Page Intentionally Left Blank
                                   DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Table of Contents

Executive Summary                                                                                i

Purpose and Background                                                                          1

Observations and Recommendations                                                                4

Conclusion                                                                                    10

Appendixes

     A.   Management Request                                                                  11
     B.   DoD/VA OIG Announcement Memo                                                        12
     C.   Management Comments                                                                 13
     D.   Report Distribution                                                                 14
               DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




This Page Intentionally Left Blank
                                               DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Purpose and Background

Purpose of this Report. This report summarizes the results of the Department of Defense
(DoD) and Veterans Affairs (VA) Inspectors General (IG) interagency evaluation of the health
care transition processes for Service members severely injured in Operations Iraqi Freedom and
Enduring Freedom (OIF/OEF).

Background. On March 10, 2005, the Under Secretary of Defense for Personnel and Readiness
requested the DoD Inspector General perform a review of the DoD/VA care transition process
for Service members injured in OIF/OEF, including medical hold and medical holdover
programs in each of the Services (see Appendix A).

In May 2005, the DoD Assistant Inspector General for Inspections and Evaluations met with the
Deputy Assistant Secretary of Defense for Force Health Protection and Readiness to discuss
project scope and identify objectives. Attendees agreed that the announced objectives would
concentrate on the process, not individual cases, and address all Service components.

Prior to announcing the project, the DoD IG team met with the VA Assistant Inspector General
for Healthcare Inspections to form an interagency team. The combined approach facilitated the
team’s access to DoD and VA facilities, records, and decision makers. A joint team also allowed
for a systemic examination of the process across agency boundaries and the formulation of
recommendations for both Departments.

The interagency IG team announced the project in July 2006 and began fieldwork immediately
(see Appendix B).

Objective. The announced objective was to conduct a strategic assessment of law, policies, and
processes governing the Services to determine if Service members wounded in OIF/OEF receive
effective access to care and benefits during and after transition from DoD health care to the VA.

The evaluation did not include an assessment of any aspect of the quality of medical care. The
interagency IG team did not conduct a transaction based audit of process results or a survey of
injured Service members’ perceptions. The team developed recommendations from document
analyses and interviews with decision makers, process owners, health care professionals, and
other stakeholders.

Fieldwork. Between July 2006 and February 2007, the interagency IG team conducted over 35
site visits to DoD and VA facilities, and interviewed over 70 key officials from the Offices of the
Secretaries of Defense and Veteran Affairs with program responsibilities. The team also
reviewed existing, enacted, and proposed legislation, GAO reports, and other external studies
relevant to the objective.




                                                 1
                                                       DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




The interagency IG team identified areas for potential improvement, and developed a series of
observations concerning the process for transitioning Service members and veterans. The
observations addressed:
    •   post-deployment integration, benefits, and mental health of injured Service members,
    •   benefits and support to families of injured Service members, and
    •   data-sharing and case management among DoD, VA, and private sector facilities.

The observations resulted in 14 draft recommendations to offices in DoD and VA. The
interagency IG team provided the Under Secretary of Defense for Personnel and Readiness with
preliminary observations and recommendations during an in progress review on March 2, 2007.
The team planned to complete their evaluation in July 2007.

Shifting Landscape. During 2006, the interagency IG effort was one of three parallel efforts
related to the impacts of OIF/OEF on Service member health care. In early 2007, media
attention on the treatment of injured Service members generated intense public interest in policy
and procedures governing “wounded warrior” health care and benefits. This coincided with the
interagency IG team’s completion of the data analysis process. The increased interest led to the
establishment of independent commissions, further legislative activity, and DoD and VA actions.

Two commissions performed their work during this evaluation: the Veterans Disability Benefits
Commission, formed in May 2005, and the DoD Task Force on Mental Health, formed in May
2006. Both groups published their results in 2007. 1

Beginning in February 2007, the Washington Post published a series of articles regarding health
care for Wounded Warriors. The articles focused on conditions of outpatient services at Walter
Reed Army Medical Center. In response, senior government officials established three
independent commissions, all of whom provided their results in 2007.

    •   February 2007 – Independent Review Group on Rehabilitative Care and Administrative
        Processes at Walter Reed Army Medical Center and National Naval Medical Center:
        “Rebuilding the Trust,” April 2007.
    •   March 2007 – Task Force on Returning Global War on Terror Heroes: “Report to the
        President,” April 2007.
    •   March 2007 – President’s Commission on Care for America’s Returning Wounded
        Warriors: “Serve, Support, Simplify: Report of the President’s Commission on Care for
        America’s Returning Wounded Warriors,” July 2007.



1
 “Honoring the Call to Duty: Veterans’ Disability Benefits in the 21st Century,” report by the Veterans Disability
Benefits Commission, October 2007, and “An Achievable Vision: A Report of the Department of Defense Task
Force on Mental Health,” DoD Task Force on Mental Health, June 2007.



                                                         2
                                              DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




In addition, the Government Accountability Office, the DoD and VA Inspectors General, and
other organizations completed reviews as part of their normal oversight functions.

Meanwhile, Congress legislated new laws affecting the care of injured Service members.
Section 563 of the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 2006 (P.L.
109-163) outlined policy and procedural changes for assistance to severely injured Service
members. Section 564 of the NDAA for FY 2007 (P.L. 109-364) required DoD augmentation of
Service programs to assist severely injured Service members. Media attention, the
recommendations of independent commissions, and agency activity culminated in Congress
including Titles 16 (“Wounded Warrior Matters”) and 17 (“Veterans Matters”) in the NDAA for
FY 2008 (P.L. 110-181). This legislation mandated extensive changes to DoD and VA policy
and procedures, incorporating many recommendations for improvement identified by the
independent commissions.

In May 2007, the Secretary of Defense formed the Wounded, Ill, and Injured Senior Oversight
Committee. The mission of this committee was to coordinate and track legislative requirements,
the more than 400 recommendations made by the independent commissions, and implementing
actions within DoD and VA. The Deputy Secretary of Defense and the Deputy Secretary of
Veterans Affairs co-chair this joint DoD-VA committee.

The interagency IG team first met with the Wounded, Ill, and Injured Senior Oversight
Committee representatives in September 2007. The initial intent was to determine if the 14 draft
IG recommendations duplicated or contradicted Congressional intent or findings of other review
groups. The interagency IG team was also aware of the pending sections of the NDAA for FY
2008 and decided to postpone releasing findings until after the President signed the NDAA for
FY 2008 into law. After final review, the team determined that 11 of the 14 draft
recommendations were being addressed. There was little value in repeating existing
recommendations and there was no value in recommending action already mandated by law.

The Office of the Under Secretary of Defense for Personnel and Readiness and the Office of the
Secretary of Veterans Affairs reviewed a draft of this report. The Wounded, Ill, and Injured
Senior Oversight Committee provided a DoD response, concurring with comment (see Appendix
C). Summarized comments and response follow the recommendation on page 8. The Office of
the Secretary of Veterans Affairs had no comments to the draft report. No further response is
required.




                                                3
                                              DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Observations and Recommendations

Recommendations Addressed in Other Reviews. The interagency IG team determined that
legislation and other task force reports covered 11 of the 14 draft recommendations.
Furthermore, as of April 2008, the appropriate DoD and VA offices had initiated or completed
actions to address the issues. The 11 covered recommendations addressed five general topics.

       1. Post-Deployment Integration. ISSUES: Time constraints, benefits awareness, and
       duplicative medical exams complicated injured Service members’ return to civilian life
       and use of benefits, especially members of the Reserve Component.

       ACTION: DoD and VA increased collaborative efforts and staff training, enhanced the
       Transition Assistance Program, and expanded the Benefits Delivery at Discharge
       program. These changes benefited all transitioning Service members and veterans,
       especially members of the Reserve Component.

       2. Support for Families. ISSUES: TRICARE rules and VA requirements caused
       inequitable treatment of eligible family members and familial attendants providing aid
       and assistance to severely injured Service members or veterans during periods of
       treatment.

       ACTION: DoD drafted policies and procedures allowing increased access to TRICARE
       and Military Treatment Facilities for familial attendants. VA issued a legislative
       proposal requesting VA travel and per diem rules for attendants match those of DoD.
       When adopted, these changes will remedy the identified inequities.

       3. Service Member Benefits. ISSUES: TRICARE rules have disadvantaged medically
       retired Service members. In addition, inadequate consideration of service connected
       behavioral changes during character of discharge proceedings has affected access to
       health care benefits.

       ACTION: The Wounded, Ill, and Injured Senior Oversight Committee reviewed
       proposed changes to TRICARE rules for medically retired Service members. Both DoD
       and VA drafted and were implementing new procedures to screen and evaluate Service
       members and veterans for traumatic brain injuries and post traumatic stress syndrome.

       4. Mental Health. ISSUES: DoD and the military Services needed to improve
       awareness, reduce stigma, and increase training throughout the force concerning the
       mental health of Service members deployed, returning from deployment, and
       redeploying.




                                                4
                                                     DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




        ACTION: DoD developed and was preparing to implement mental health awareness and
        anti-stigma campaigns. DoD and VA updated and promulgated clinical policies and
        procedures for mental health professionals.

        5. DoD/VA Private Sector Interface. ISSUES: Case management for injured Service
        members and veterans transitioning between DoD and VA was disjointed, and health
        records were not integrated.

        ACTION: DoD and VA formed the Federal Recovery Coordinator Program, an
        interagency effort to improve lifelong case management for severely injured Service
        members. DoD and VA accelerated the development of an interoperable patient health
        record system.

Recommendations Unique to the Interagency IG Team. The three remaining draft
recommendations of the interagency IG team were unique, or only partially addressed in
legislation or parallel task force reports as of April 2008.

        1. DoD Care Transition Coordination

        Discussion: DoD had no office of primary responsibility to facilitate a seamless
        transition process for injured combat veterans and their families as they move through the
        DoD health care and benefits programs to the VA health care system.

        Seamless transition program responsibilities within DoD were spread among multiple
        organizations in the Office of the Under Secretary of Defense for Personnel and
        Readiness. Offices with responsibility included:
            •    Assistant Secretary of Defense for Reserve Affairs
            •    Deputy Under Secretary of Defense for Military Community and Family Policy
            •    Deputy Assistant Secretary of Defense for Force Health Protection and Readiness
            •    Military OneSource clearinghouse (formerly the Military Severely Injured Center)
            •    TRICARE Management Activity

        DoD had not drafted a comprehensive policy for assistance to “severely injured Service
        members” as mandated by the NDAA for 2006 (P.L. 109-163). 2 Divided program
        responsibilities contributed to the complexity of the effort and the delay in completion.

        VA established an Office of Seamless Transition in January 2005 to improve internal
        coordination, enhance DoD/VA collaboration, and integrate VA and DoD activities.
        They staffed the office with representatives from all major organizations within the VA,

2
 Public Law 109-163, National Defense Authorization Act for Fiscal Year 2006, Section 563(b), “Policy and
Procedures On Assistance to Severely Wounded or Injured Service Members.”



                                                       5
                                                      DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




        and included representation from the military Services. In 2005, the DoD/VA Health
        Executive Council 3 recommended to the DoD/VA Joint Executive Council 4 that DoD
        should create an office similar to that established by the VA. 5

        In October 2007, the VA Under Secretary for Health reorganized the Office of Seamless
        Transition along clinical case management and DoD outreach functional lines. The
        Under Secretary for Health elevated program oversight to an executive director, who
        reports directly to him.


                Interagency IG Team Recommendation: The Under Secretary of
                Defense for Personnel and Readiness should create a DoD Office of
                Seamless Transition to coordinate the transition process between
                DoD and VA, and consolidate oversight elements of the transition
                process under DoD responsibility.



        Actions Taken: As of April 2008, DoD developed draft policy for seamless transition
        oversight and coordination. Implementation was on hold pending final guidance and
        instructions from the Wounded, Ill, and Injured Senior Oversight Committee. Final
        direction from the Wounded, Ill, and Injured Senior Oversight Committee should ensure
        consolidation of responsibility for the care transition process in DoD, and the Under
        Secretary of Defense for Personnel and Readiness should act on the guidance.
        In accordance with their charter, the Wounded, Ill, and Injured Senior Oversight
        Committee planned to disband in January 2009. For consistency and to facilitate
        continuous improvement, the Joint Executive Council should maintain their efforts to
        coordinate and advocate implementation of legislative provisions and recommended
        initiatives.

        2. Benefits to Disabled Service Members

        Discussion: Home Improvement and Structural Alteration (HISA) Grants were not
        available to severely injured Service members prior to discharge from active military
        service. Two sections of Title 38 of the United States Code apply to home purchase or
3
  The VA/DoD Health Executive Council (HEC) is co-chaired by the VA Under Secretary for Health and the
Assistant Secretary of Defense for Health Affairs. Attendees included representatives from the VA Central Office,
DoD Offices of the Under Secretary of Defense (Personnel & Readiness), the Assistant Secretary of Defense (Health
Affairs), Service representatives from Manpower and Reserve Affairs and Medical Components, and the National
Guard Bureau.
4
  The Deputy Secretaries of Defense and Veterans Affairs co-chair the VA/DoD Joint Executive Council. The
Health Executive Council reports to the Joint Executive Council.
5
  VA/DoD Health Executive Council memorandum to the VA/DoD Joint Executive Council, Seamless Transition
Summit Recommendations, page 2, July 07, 2006



                                                        6
                                                      DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




        adaptations. One section authorizes the VA to provide benefits to disabled veterans and
        members of the Armed Forces, the other only applies to veterans (post discharge).

        In June 2006, Congress amended section 2101, title 38, United States Code, authorizing
        VA to offer grants for the purchase of housing, or adaptation of existing housing with
        fixtures or special features that accommodate disabilities. The authorization applied to
        disabled veterans and members of the Armed Forces with permanent and total service-
        connected disabilities. Housing adaptations included modification such as renovating
        residence entrances for wheelchair access or modifying existing facilities for roll-in
        showers or walk-in bathtubs. This authority allowed the Veterans Benefits
        Administration to provide grants to individuals with service-connected disabilities prior
        to discharge.

        Conversely, section 1717, title 38, United States Code, authorized the VA to offer HISA
        grants funding home adaptation or alteration to ensure continuation of treatment to
        veterans. VA was not authorized to offer HISA grants to Service members prior to
        discharge from service. HISA grants apply to structural alterations necessary to assure
        the continuation of treatment and/or provide access to the home or to essential lavatory
        and sanitary facilities. Case managers at VA Polytrauma Rehabilitation Centers stated
        that the inability to obtain HISA grants for injured Service members who had not yet
        been discharged from active duty hindered continuation of treatment during their
        transition from DoD to VA health care. 6


                 Interagency IG Team Recommendation: The Office of
                 Congressional and Legislative Affairs of the Department of
                 Veterans Affairs should promote enaction of an amendment to
                 section 1717, title 38, United States Code to allow the Secretary of
                 Veterans Affairs to provide Home Improvements and Structural
                 Alterations (HISA) grants to eligible veterans prior to discharge
                 from military service.


        Actions Taken: In June 2007, the VA Office of Congressional and Legislative Affairs
        began consideration of a legislative proposal requesting Congress add language
        authorizing “the Secretary of Veterans Affairs to provide Home Improvements and
        Structural Alterations (HISA) grants to eligible veterans and members of the Armed
        Forces.” The VA Office of Congressional and Legislative Affairs should continue to
        promote action on the proposal.

6
 During Fiscal Years 2004-2006, VA Polytrauma Rehabilitation Centers treated 173 seriously injured veterans of
OIF and OEF. The HISA benefit was limited to $4,100 for veterans with service-connected injuries, and $1,200 for
veterans with injuries that were not service connected.



                                                        7
                                                    DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




        3. Medicare Benefits to Unemployable Disabled Veterans

        Discussion: Medically retired Service members who are rated 100 percent disabled and
        deemed unemployable pay more for medical care than career-service retirees if they do
        not have ready access to health care from VA or DoD facilities.

        Service members determined unfit for continued service resulting from service related
        injuries or illness are medically retired. Medical and career-service retirees had equal
        rights of access to DoD and VA health care benefits, and were eligible for continued
        enrollment in TRICARE For Life. However, medical retirees deemed unemployable
        because of diminished capabilities could either:
            •   receive health care for service related injuries or illness at a VA facility,
            • enroll in Medicare Part B, remain eligible for TRICARE, and receive care from
            civilian facilities, or
            •   sign up for private health insurance and receive care from civilian facilities.

        The first option entailed no cost to the medically retired Service member, but it required a
        permanent residence near a VA facility providing the necessary treatment options. Aside
        from the few with sufficient means to avail themselves of the third option, medically
        retired Service members not living in geographic proximity to VA facilities generally
        select the second option.

        Enrollment in Medicare Part B incurs at least a $96.40 monthly premium. 7 This cost was
        charged according to different age criteria for career-service retirees when compared to
        medically retired Service members. Career-service retirees are entitled to enroll in
        Medicare Part B when they reach 65 years of age. Medical retirees deemed
        unemployable can enroll in Medicare Part B immediately following medical retirement,
        regardless of age, and were required to do so in order to qualify for TRICARE For Life.
        As of 2008, medical retirees deemed unemployable paid $1,156.80 per year in Medicare
        Part B premiums per year to remain eligible for Medicare Part B and TRICARE For Life
        until reaching the age of 65. Career-service retirees had no need for Medicare Part B
        benefits and therefore did not pay such premiums prior to age 65. This has resulted in an
        inequity in health care premiums for medical retirees deemed unemployable.

        Section 1086(d)(2), title 10, United States Code establishes the requirement for retirees
        who are Medicare eligible to enroll in Medicare Part B in order to obtain TRICARE For
        Life benefits. Section 1395j, title 42, United States Code and other Medicare related
        sections set eligibility and standards for military medical retirees deemed unemployable.
        Removing the inequity in premium payments for retirees deemed unemployable will
        likely require legislative change involving more than one agency.

7
 “CMS Announces Medicare Premiums, Deductibles for 2008,” October 1, 2007, Centers for Medicaid and
Medicare Services, http://www.cms.hhs.gov/apps/media/press/factsheet.asp?Counter=2488 , accessed June 6, 2008


                                                      8
                                       DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




      Interagency IG Team Recommendation: The Under Secretary of
      Defense for Personnel and Readiness should coordinate with the
      Centers for Medicare and Medicaid Services of the Department of
      Health and Human Services to develop and propose legislation
      waiving Medicare Part B monthly premiums for life for medically
      retired Service members deemed unemployable.


Actions Taken: No legislative action has been proposed or enacted. No policy or
implementation actions found.

Management Comment and Evaluation Team Response: The Wounded, Injured, and Ill
Senior Oversight Committee stated that, for those eligible, TRICARE covers health care
fees, including co-pays and deductibles not covered by MEDICARE (see Appendix C).
However, the intent of the discussion and recommendation was to address program
enrollment costs, highlighting the discrepancy between unemployable medical and
career-service retirees. We clarified the text of the recommendation, replacing the waiver
of “fees” with the term “premiums.”




                                         9
                                              DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Conclusion

This evaluation reviewed the process for the transition of health care services from DoD to VA
for Service members injured in OIF/OEF. Interviews, observations, and analysis led to the
identification of 14 recommendations for improvement to the transition process. During the
conduct of the evaluation, parallel activity of commissions of experts and other oversight
organizations issued reviews of the system of health care for injured Service members. The
interagency IG team chose to delay publication of our findings to prevent duplication of
recommendations and potential conflicts with legislation.

Of the 14 recommendations drafted, 11 were addressed by reports of commissions working in
parallel and legislation completed during the evaluation. This validated the interagency IG
team’s decision to delay this report. As discussed above, three recommendations remained
unique to the IG effort, and we recommend that respective organizations address the underlying
issues.

Since 2005, DoD and VA made significant progress modifying, updating, and improving the
systems supporting injured Service members and veterans. Media reports, Congressional
legislation, and an urgency to do what is right for injured Service members and veterans
sustained interest in these issues. The Departments continued to consolidate over 400
recommendations for improvement, assign tasks to appropriate offices, and coordinate efforts.
The final step will be to ensure implementation. The Inspectors General of the DoD and VA will
continue to monitor program execution and provide oversight assistance to facilitate a timely,
effective, and streamlined care transition program.




                                               10
                        DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Appendix A–Management Request




                         11
                      DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Appendix B–DoD/VA OIG Announcement Memo




                       12
                       DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Appendix C–Management Comments




                        13
                                              DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Appendix D–Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)*
   Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Wounded, Ill, and Injured Senior Oversight Committee

Department of the Army
Inspector General, Department of the Army


Department of the Navy
Naval Inspector General
Deputy Naval Inspector General for Marine Corps Matters


Department of the Air Force
Inspector General, Department of the Air Force


Combatant Command
Joint Staff Surgeon
Inspector General, Joint Staff


Department of Veterans Affairs
Secretary of Veterans Affairs*
Under Secretary for Health
Under Secretary for Benefits
Inspector General
Office of Congressional and Legislative Affairs


Congressional Committees
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and Related
 Agencies

* Denotes recipient of the draft report.




                                                 14
                                          DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




Appendix D–Report Distribution – continued

House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations
House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and Related
 Agencies

Other
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget




                                           15
                                              DoD/VA Care Transition Process for Service Members Injured in OIF/OEF




THE MISSION OF THE DOD OIG
The Office of the Inspector General promotes integrity, accountability, and improvement of
Department of Defense personnel, programs, and operations to support the Department’s mission
and to serve the public interest.



THE MISSION OF THE VA OIG
The Office of Inspector General is dedicated to helping VA ensure that veterans and their
families receive the care, support, and recognition they have earned through service to their
country. OIG strives to help VA achieve its vision of becoming the best-managed service
delivery organization in Government. The OIG continues to be responsive to the needs of its
customers by working with the VA management team to identify and address issues that are
important to them and the veterans served.



TEAM MEMBERS
The Inspections and Evaluations Directorate, Office of the Deputy Inspector General for Policy
and Oversight, Office of the Inspector General for the Department of Defense and the Health
Affairs Inspections Directorate, Office of Inspector General for the Department of Veterans
Affairs prepared this report. Personnel who contributed to the report were:

Department of Defense                                Department of Veterans Affairs
   Mr. George P. Marquardt                              Mr. Jerome Herbers, Jr., MD
   Col Michael Luft, USAF                                  (Team Co-Lead)
       (Team Co-Lead)                                   Ms. Patricia Christ, RN
   Col Christy Barber, USAFR                            Ms. Limin Clegg, PhD
   Mr. Stephen Chiusano                                 Ms. Donna Giroux, RN
   Lt Col Steven Luke, USAF                             Mr. Nelson Miranda, LCSW
   Lt Col Chad Lusher, USAF                             Mr. Randy Snow, JD



ADDITIONAL REPORT COPIES
Contact us by phone, fax, or e-mail:
  Inspections and Evaluations directorate, Deputy Inspector General for Policy and Oversight
  COM: 703.604.9159 (DSN664.9159)
  FAX: 703.604.9769
  E-MAIL: crystalfocus@dodig.mil
  Electronic version available at: www.dodig.mil/Inspections/IE/Reports
    Help VA's Secretary to ensure the integrity of departmental operations by reporting suspected abuse in VA
    programs or operations. For more information visit: www.va.gov/oig/contacts/hotline

     Phone: 800-488-8244
     Fax: 202-565-7936
     E-mail: vaoighotline@va.gov

     Write the VAOIG Hotline:
     VA INSPECTOR GENERAL HOTLINE (53E)
     P.O. BOX 50410
     WASHINGTON, DC 20091-0410




     If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of Defense, please contact:

DEPARTMENT OF DEFENSE
                                         To report fraud, waste, mismanagement, and abuse of authority.

                                         Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                         Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.millhotline
      United States Department of Veterans Affiairs
               Office of Inspector General
                        www.va.gov/oig




/I   m n wfio i gooaenougfi to fiea fiis 6fi. dfor fii COllntry
     is goat! enol1gli to 6e gi en a quare dear aft rWQn[s. /I

                      rrTieotfore ~o    eft




     ACCOUNTABILITY I TEGRITY EFFICIENCY

          United States Department of Defense
               Office of Inspector General
                         www.dodig.mil
